 




    OFFICE OF THE
    SECRETARY
    FY 2011 Compliance with
    Improper Payment
    Requirements




    FINAL REPORT OIG-12-022-I
    MARCH 15, 2012



    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation

    For Public Release




 
                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           The Inspector Gen er al
                                                           Washington, D.C. 20230


March IS, 2012

MEMO RAND UM FOR: The Honorable John E. Bryson


FROM:
                            1'cnk9 0 .5 .........__ 

                           Todd J. Zinser

SUBJECT:                   FY 20 I I Compliance with Improper Payment Requirements
                           Final Report No. QIG-12-022-1

This memorandum provides our final report on FY 20 I I improper payment reporting. We
conducted this review to comply with the requirements of the Improper Payments Elimination
and Recovery Act of 20 I0 (IPERA) and Office of Management and Budget Circular A-123,
Appendix C.

Our review focused on determining whether the Department's improper payment r eporting in
Appendix F of its FY 20 I I Performance and Accountability Report complied with Improper
Payments Information Act of 2002 (IPIA), as amended by IPERA. We also evaluated the
accuracy and completeness of the Department's reporting, as well as its performance in
reducing and recapturing improper payments.

Overall, we found that the Department was in compliance with IPIA requirements for FY 20 I I.
However, we determined that the Department's improper payment implementation strategy
related to payments without sufficient documentation and payment recapture audits can be
improved. Our report contains two recommendations to address these conditions.

In accordance with Department Adm inistrative Order 213-5, we request an action plan within
60 days of the date of this memorandum from the Office of the Secretary that responds to our
recommendations.

We are also issuing a copy of this report to the Senate Committee on Homeland Security and
Governmental Affairs; House Committee on Oversight and Government Reform; Comptroller
General of the United States; Acting Director, Office of Management and Budget; and
Comptroller, Office of Management and Budget.

We would like to thank the Department's staff and management for its cooperation during our
review. Please contact me at (202) 482-4661, if you would like to discuss the results of this
review.


Attachment
cc: 	   Scott B. Quehl, Chief Financial Officer and Assistant Secretary for Administration
        Lisa Casias, Deputy Chief Financial Officer and Director for Financial Management
        Gordon Alston, Deputy Director for Financial Management
        julie Tao, Director for Internal Controls
        Peter P. Petrianni, Audit Liaison
                                             Report In Brief                                     M AR C H 1 5 , 2 0 1 2




Background                                OFFICE OF THE SECRETARY
Improper payments are those made
by the federal government in the
                                          FY 2011 Compliance with Improper Payment Requirements
wrong amount, to the wrong entity,        OIG-12-022-I
or for the wrong reason. Federal
agencies reported estimated im-
proper payments of more than $115
                                          WHAT WE FOUND
billion (approximately 5 percent of       To comply with IPIA and OMB Circular A-123, Appendix C, the Department
outlays) for FY 2011.                     implemented procedures in FY 2011 to detect and prevent improper payments—
The Improper Payments Infor-              conducting program risk assessments, reviewing a sample of FY 2011 disbursements,
mation Act of 2002 (IPIA) re-             performing payment recapture audits, and conducting routine monitoring procedures.
quires federal agencies to (1) identify   These assessments revealed no programs or activities susceptible to significant risk of
programs susceptible to improper          improper payments.
payments; (2) estimate improper           In addition, the Department’s review did not identify any significant improper payments.
payment amounts for such pro-             The Department’s routine monitoring efforts identified $3.5 million in overpayments in
grams; and (3) report these esti-         FY 2011, most of which it recaptured. Based on these activities, we found the
mates, along with actions taken to        Department to be in compliance. The Department has also completed implementation of
reduce improper payments for pro-         corrective actions to address the recommendations issued in our March 2011 report on
grams with estimates that exceed          improper payment practices and reporting. A summary of the Department’s relevant FY
$10 million in improper payments.         2011 practices and results appear in appendix F of the U.S. Department of Commerce
The Improper Payments Elimi-              FY 2011 Performance and Accountability Report (PAR).
nation and Recovery Act of
2010 (IPERA) amended IPIA by ex-          While the Department was in compliance with IPIA requirements for FY 2011—and
panding on the previous require-          successfully addressed recommendations from our March 2011 report—we determined
ments for identifying, estimating, and    that the Department could improve improper payment implementation strategy related to:
reporting on programs and activities
                                            • 	 Payment recapture audits. In reviewing the Department’s November 2011
which were vulnerable to significant
                                                contractor report on payment recapture audits, we noted that 6 of 34 grants
improper payments and broadening
                                                reviewed at one bureau were closed several years after the last disbursement.
recovery requirements for overpay-
                                                Because the Department excludes grants and contracts not officially closed out
ments.
                                                from the Department’s payment recapture audits, we believe there is a risk that
Why We Did This Review                          the unaudited population contains improper payments that will proceed
                                                undetected until subjected to the closeout process.
We initiated this engagement to
review the Department’s compliance          • 	 Payments without sufficient documentation. The Department’s contractor—
with IPIA—as required by the Office             unable to obtain adequate documentation in a timely manner to determine
of Management and Budget's                      whether erroneous payments were made for 3 of 4 grants for one smaller
(OMB’s) government-wide imple-                  Department bureau and 13 of 19 grants for another similarly-sized bureau—could
mentation guidance, Circular A-123,             not reach a conclusion. OMB requires that payments made under these types of
Management’s Responsibility for Inter-          grants be considered improper payments. However, the Department did not
nal Controls, Appendix C,                       report the payments made pursuant to these grants as improper in its PAR.
“Requirements for Effective Meas-
urement and Remediation of Im-
                                          WHAT WE RECOMMEND
proper Payments.” Specifically, we
                                          We recommend that the Department:
(1) assessed whether the Depart-
ment complied with all reporting            1. 	 expand the scope of its review of grants and contracts to include those for which
requirements and (2) evaluated the               the period of performance ended and last payment was made, but for which the
accuracy and completeness of its                 closeout process has not been completed; and
reporting as well as its performance
in reducing and recapturing im-             2.	 research items identified in payment recapture audits as lacking sufficient
proper payments.                                documentation, and report amounts in its annual Performance and Accountability
                                                Report when unable to discern propriety of payment.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Findings and Recommendations ....................................................................................................................3
 
   Improper Payment Elimination Practices Are Compliant, but Further Improvements 

   Are Needed ...................................................................................................................................................3
 
   I.	  The Department Should Expand Its Payment Recapture Audit Scope ....................................4
 
   II.	  Improper Payment Reporting Should Include Payments Lacking Sufficient 

         Documentation ....................................................................................................................................4
 
Summary of Agency and OIG Comments...................................................................................................6
 
Appendix A: Objectives, Scope, and Methodology ...................................................................................7
 
Appendix B: Agency Response ......................................................................................................................8
 




                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters,
 
                                                                                                                   by sculptor James Earle Fraser, 1934
 




FINAL REPORT OIG-12-022-I
  DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL


Introduction 

Broadly defined, improper payments are those made by the federal government in the wrong
amount, to the wrong entity, or for the wrong reason.1 Federal agencies reported that
improper payments were estimated at over $115 billion (approximately 5 percent of outlays)
for FY 2011.

Congress enacted the Improper Payments Information Act of 2002 (IPIA) to encourage agency
management to plan and take actions to reduce such payments. It requires federal agencies to
(1) identify programs that were susceptible to improper payments, (2) estimate improper
payment amounts for such programs, and (3) report these estimates along with actions taken to
reduce improper payments for programs with estimates that exceed a certain percentage of
disbursements and $10 million. The Improper Payments Elimination and Recovery Act of 2010
(IPERA) amended IPIA2 by expanding on the previous requirements for identifying, estimating,
and reporting on programs and activities which were vulnerable to significant improper
payments3 and broadening recovery requirements for overpayments.

During fiscal year 2011, the Department made approximately $14 billion in total outlays. As
mandated by IPIA, the Department implemented various policies and procedures intended to
detect and prevent significant improper payments. Overall, the Department identified no
significant improper payments in its programs and activities. A summary of the Department’s FY
2011 improper payment practices and results appear in appendix F of the U.S. Department of
Commerce FY 2011 Performance and Accountability Report (PAR).

We initiated this engagement to review the Department’s compliance with IPIA. We focused
on the Department’s efforts to calculate, disclose, reduce, and—when appropriate—recapture
improper payments accurately, as required by the Office of Management and Budget's (OMB’s)
government-wide implementation guidance, Circular A-123, Management’s Responsibility for
Internal Controls, Appendix C, “Requirements for Effective Measurement and Remediation of
Improper Payments.” Specifically, we (1) assessed whether the Department complied with all
reporting requirements and (2) evaluated the accuracy and completeness of its reporting as
well as its performance in reducing and recapturing improper payments.

 



                                                            
1
  According to the Improper Payments Elimination and Recovery Act of 2010, or “IPERA,” (Public Law 111-204),
an improper payment is any payment that should not have been made or that was made in an incorrect amount
(including overpayments and underpayments) under statutory, contractual, administrative, or other legally
applicable requirements. It includes any payment (a) to an ineligible recipient, (b) for an ineligible good or service,
(c) that is duplicate, and (d) that does not account for credit for applicable discounts. 

2
  Unless otherwise indicated, the term ‘IPIA” will imply “IPIA, as amended by IPERA” throughout this report.

3
  IPIA defines significant improper payment as improper payments exceeding (a) 2.5 percent of program payments 

and $10 million or (b) $100 million. OMB further established additional requirements related to federal agency 

management accountability, recovery auditing, compliance/noncompliance determination through an inspector 

general assessment, and maintaining sufficient internal controls related to improper payments. 



FINAL REPORT OIG-12-022-I                                                                                                 1
  DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL

We found that the Department was in compliance with IPIA, as described in table I. However,
we also identified two areas for further improvement. We believe that the Department should
expand the scope of its payment recapture audits. Additionally, the Department’s improper
payment reporting should include items where the Department was unable to reach a
conclusion on propriety of payment.

                     Table 1. Improper Payment Reporting Requirements
                                                                                               Commerce
Requirement
                                                                                               Compliance
Published the PAR and posted on agency website                                                      Yes
Conducted program-specific risk assessments                                                         Yes
Published improper payment estimates for all programs and activities identified as                    a
susceptible to significant improper payments in the PAR
Published programmatic corrective action plans for all programs and activities susceptible            a
to significant improper payments in the PAR
Published and met annual reduction targets for each program assessed to be at risk and
                                                                                                      a
measured for all programs and activities susceptible to significant improper payments in
the PAR
Reported a gross improper payment rate of less than 10 percent for each program/activity              a
for which a significant improper payment estimate was obtained and published in the PAR
Reported information on its efforts to recapture improper payments in the PAR                       Yes

Source: OIG analysis of Department data

a
 The Department determined that it does not have any programs or activities susceptible to the risk of significant 

improper payments (i.e., exceeding either 2.5 percent of program payments and $10 million or $100 million); 

therefore, this requirement is not applicable.





                                    




FINAL REPORT OIG-12-022-I                                                                                          2
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
Improper Payment Elimination Practices Are Compliant, but Further
Improvements Are Needed

       To meet the requirements of IPIA and OMB Circular A-123, Appendix C, the Department
       implemented procedures in FY 2011 to detect and prevent improper payments. It
       conducted program risk assessments, reviewed a sample of FY 2011 disbursements,4
       performed payment recapture audits for closed contracts/obligations and grants/other
       cooperative agreements, and conducted routine monitoring procedures. The results of
       these assessments revealed no programs or activities susceptible to risk of significant
       improper payments. In addition, the Department’s review of disbursements and payment
       recapture audits did not identify any significant improper payments. The Department’s
       routine monitoring efforts—such as postpayment reviews, closeout reviews, and
       settlements—identified $3.5 million in overpayments in FY 2011, most of which it
       recaptured. Based on these activities, we found the Department to be in compliance with
       IPIA.

       The Department has also implemented corrective actions to address the following
       recommendations issued in our March 2011 report on improper payment practices and
       reporting:5

              •	 Provide bureaus with additional guidance and training to identify the improper
                 payments categories, and ensure that all categories are accurately and completely
                 reported;

              •	 Include grant payments in future recovery audits; and

              •	 Expand internal control and program risk assessment to include specific fraud
                 scenarios.

       The bureaus now report additional categories of improper payments including the results of
       OIG audits and reviews, single audits, and contract and grant closeout reviews. The
       bureaus’ risk assessment processes now include the consideration of fraud risk scenarios.
       The Department also expanded the scope of its payment recapture audits to include grants
       and other cooperative agreements disbursements—and hired a contractor to assist in the
       review of closed grants, cooperative agreements, and contracts.

       While the Department was in compliance with IPIA requirements for FY 2011 and
       successfully addressed OIG recommendations, we determined that the Department could

                                                            
4
  The review included disbursements greater than $100,000. Not included in the review were grants, cooperative
agreements, travel payments, bank/purchase card payments, procurement vehicles with other federal agencies,
government bills of lading, and gifts and bequests.
5
  OIG Final Report No. OIG-11-021-A, Commerce Needs to Strengthen Its Improper Payment Practices and Reporting.


FINAL REPORT OIG-12-022-I                                                                                         3
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

       improve improper payment implementation strategy related to payment recapture audits
       and payments without sufficient documentation.

     I.	      The Department Should Expand Its Payment Recapture Audit Scope

       In reviewing the Department’s November 2011 contractor report on the payment
       recapture audits, we noted that 6 of 34 grants reviewed at one bureau were closed several
       years after the last disbursement. The Department and bureaus acknowledged that they do
       not always perform timely closeout reviews for grants6 and contracts. Because the
       Department excludes grants and contracts that are not officially closed out from the
       Department’s payment recapture audits, we believe that there is a risk that the unaudited
       population contains improper payments that will proceed undetected until subjected to the
       closeout process. Until the Department improves the efficiency of the closeout process, the
       recapture audit scope should be expanded to mitigate the potential for improper payments
       going undetected due to the closeout backlog. By waiting for the closeout process to occur,
       the Department might not be identifying and recapturing improper payments quickly
       enough.

       Recommendation

       We recommend that the Department:

              1.	 Expand the scope of its review of grants and contracts to include those for which
                  the period of performance ended and last payment was made, but for which the
                  closeout process has not been completed.

    II.	      Improper Payment Reporting Should Include Payments Lacking Sufficient
              Documentation

       We also noted that the contractor hired to help with the review was unable to obtain
       adequate electronic documentation from the grants system to determine whether or not
       erroneous payments were made for 3 of 4 grants for one smaller Department bureau and
       13 of 19 grants for another similarly-sized bureau. According to the Department, the
       contractor did not reach a conclusion on these grants because manual documentation could
       not be located in a reasonable amount of time. OMB Circular A-123, Appendix C, requires
       that, when an agency’s review is unable to discern whether a payment was proper as a
       result of lack of documentation, it should be considered an improper payment. The
       Department did not report the payments made pursuant to these grants as improper in its
       PAR.

 


                                                            
6
  Immediately following the expiration of an award, the Department should ensure that activity is complete and
that the Department and the recipient have met all requirements imposed by applicable laws, regulations, OMB
circulars, and award terms and conditions.


FINAL REPORT OIG-12-022-I                                                                                        4
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL


    Recommendation

    We recommend that the Department:

         2.	 Research items identified in payment recapture audits as lacking sufficient
             documentation, and report amounts as improper payments in its annual Performance
             and Accountability Report when unable to discern propriety of payment.

 




FINAL REPORT OIG-12-022-I                                                                       5
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL


Summary of Agency and OIG Comments 

We reviewed the Department’s response, included in Appendix B, and considered the
Department’s comments in preparing the final report. Overall, the Department was pleased
that our office found the Department in compliance with IPIA, and provided a summary of its
planned approach to address the recommendations in our report.

We look forward to reviewing the Department’s corrective action plan to address our report
recommendations.




FINAL REPORT OIG-12-022-I                                                                     6
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
As required by the Office of Management and Budget's (OMB’s) government-wide guidance on
detecting and preventing improper payments—Circular A-123, Management’s Responsibility for
Internal Controls, Appendix C, “Requirements for Effective Measurement and Remediation of
Improper Payments”—we initiated this review to determine whether the Department complied
with the Improper Payments Information Act of 2002 (IPIA), as amended by the Improper
Payments Elimination and Recovery Act of 2010 (IPERA). Specifically, our objectives were to (1)
assess whether the Department complied with all reporting requirements and (2) evaluate the
accuracy and completeness of its reporting as well as its performance in reducing and
recapturing improper payments. Our scope included all departmental practices for assessing
and identifying programs and activities susceptible to improper payments, along with
procedures in place to detect and prevent improper payments, during FY 2011.

To meet our objective, we obtained an understanding of internal controls and practices by:

    •	 interviewing the Department’s Office of Financial Management, as well as contractor
       representatives, to gain an understanding of risk assessment, disbursement, and
       improper payment recapture processes;

    •	 requesting, obtaining and analyzing documents related to the risk assessment,
       disbursement, and improper payment recapture processes, including relevant policies
       and procedures and reports; and

    •	 reviewing “Appendix F: Improper Payments Information Act, as Amended, Reporting
       Details,” of the U.S. Department of Commerce FY 2011 Performance and Accountability
       Report.

We also reviewed the Department’s compliance with applicable provisions of IPIA and OMB
Circular A-123, Appendix C.

We conducted our field work from December 2011 to February 2012 in Washington, DC. We
performed this review under authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, August 31, 2006. The review was conducted in
accordance with the Quality Standards for Inspection and Evaluation (January 2011) issued by
the Council of the Inspectors General on Integrity and Efficiency.

 




FINAL REPORT OIG-12-022-I                                                                     7
  DEPARTMENT OF COMMERCE
U.S.                                                                                    OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response

                                                               UNITED STATES DEPARTMENT OF COMMERCE
                                                               Chief Financial Officer and
                   MAR 14 2012                                  Assistant Secretary for Administration
                                                               Washington, D.C. 20230



              MEMORANDUM FOR               Ann C. Eilers
                                           Principal Assistant Inspector General
                                             for Office of Audit and Evaluation

              FROM:                        LisaCa~
                                           Deputy ~~f Financial Officer and
                                            Director for Financial Management

              SUBJECT:                     Comments on the Draft Report Entitled, "Office ofthe Secretary FY
                                           2011 Compliance with Improper Payment Requirements"

              This memorandum responds to the draft report from the Office ofinspector General (OIG), entitled
              "Office of the Secretary FY 2011 Compliance with Improper Payment Requirements" (i.e., the
              report"), issued on March 9, 2012. I am pleased the report stated the Department is in compliance
              with the Improper Payments Information Act of2002, as amended by Improper Payments
              Elimination and Recovery Act of2010.

              Relating to recommendation #1, the Department wiJI revisit its process and reach out to other
              agencies to determine the most efficient approach regarding expanding the scope of our review to
              grants and contracts not yet closed. Relating to recommendation #2, A-123 requires including
              items as improper payments due to lack of documentation. In this instance, manual documentation
              was not readily available in the automated system; for timeliness and efficiency reasons, obtaining
              manual documentation was not pursued. We agree the contractor shouJd have pursued obtaining
              manual documentation for the grants which did not have adequate electronic
              documentation. During our next payment recapture audit, we will request the additional
              documentation for these items. For future payment recapture audits, the Department will review its
              process to ensure that documentation will be available in a reasonable amount of time; if
              documentation is not reasonably available, we will consider the circumstances for inclusion in
              improper payments reporting.

              Thank you for the opportunity to provide comments. If you have any questions or comments,
              please feel free to call me at (202) 482-1207.




FINAL REPORT OIG-12-022-I                                                                                           8
